Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   VACCINES FOR CHILDREN 

         PROGRAM:

     VULNERABILITIES IN 

   VACCINE MANAGEMENT





                    Daniel R. Levinson

                     Inspector General


                       June 2012 

                     OEI-04-10-00430 

EXECUTIVE SUMMARY: VACCINES FOR CHILDREN PROGRAM:
VULNERABILITIES IN VACCINE MANAGEMENT
OEI-04-10-00430

WHY WE DID THIS STUDY
The Centers for Disease Control and Prevention’s (CDC) Vaccines for Children (VFC)
program provides free vaccines to eligible children through a network of 61 grantees and
44,000 enrolled providers. In 2010, approximately 82 million VFC vaccine doses were
administered to an estimated 40 million children at a cost of $3.6 billion. VFC providers
must meet certain requirements for vaccine management, such as storing vaccines within
required temperature ranges and monitoring expiration dates, to ensure that these
vaccines provide children with maximum protection against preventable diseases. These
requirements are also intended to decrease VFC program fraud, waste, and abuse.

HOW WE DID THIS STUDY
Using CDC data, we selected a sample of 45 VFC providers from the 5 grantees with the
highest volume of vaccines ordered in 2010. We conducted site visits at these providers’
medical practice locations, interviewed their vaccine coordinators, and observed their
vaccine management practices. We also independently measured these providers’
vaccine storage unit temperatures for a 2-week period. Finally, we interviewed the five
grantees’ VFC program staff regarding their program oversight.

WHAT WE FOUND
Although the majority of storage temperatures we independently measured during a
2-week period were within the required ranges, VFC vaccines stored by 76 percent of the
45 selected providers were exposed to inappropriate temperatures for at least
5 cumulative hours during that period. Exposure to inappropriate temperatures can
reduce vaccine potency and efficacy, increasing the risk that children are not provided
with maximum protection against preventable diseases. Thirteen providers stored
expired vaccines together with nonexpired vaccines, increasing the risk of mistakenly
administering the expired vaccine. Finally, the selected providers generally did not meet
vaccine management requirements or maintain required documentation. Similarly, none
of the five selected grantees met all VFC program oversight requirements, and grantee
site visits were not effective in ensuring that providers met vaccine management
requirements over time.

WHAT WE RECOMMEND

We recommend that CDC continue to work with grantees and providers to ensure that
(1) VFC vaccines are stored according to requirements, (2) expired vaccines are
identified and separated from nonexpired vaccines, (3) grantees better manage providers’
vaccine inventories, and (4) grantees meet oversight requirements. CDC concurred with
all four of our recommendations and noted that vaccination is one of the most successful
public health tools in preventing and controlling disease.
TABLE OF CONTENTS
Objectives ................................................................................................................1 

Background ..............................................................................................................1 

Methodology ............................................................................................................8 

Findings..................................................................................................................14 

     VFC vaccines stored by 76 percent of 45 providers we reviewed were 

     exposed to inappropriate temperatures ............................................................14 

     Sixteen of forty-five providers we reviewed had expired VFC vaccines ........17 

     None of the 45 providers we reviewed met the vaccine management 

     requirements in all 10 categories .....................................................................18 

     None of the five VFC grantees we reviewed met all oversight requirements, 

     and grantee site visits were not effective in ensuring that providers met 

     VFC requirements over time ............................................................................21 

Conclusion and Recommendations ........................................................................25 

     Agency Comments and Office of Inspector General Response.......................28 

Appendixes ............................................................................................................29 

     A: 	Vaccines for Children Program Vaccines and Required Storage                                        

         Temperatures ..............................................................................................29 

     B: 	Vaccines for Children Program Vaccine Management Requirements                                               

         for Providers...............................................................................................31 

     C: 	Five Vaccines for Children Program Grantees With Highest Vaccine 

         Order Volumes ...........................................................................................35 

     D: 	Vaccines for Children Program Providers in the Five Selected Grantee 

         Jurisdictions by Sample Selection Characteristics .....................................36 

     E: 	Selected Vaccines for Children Program Providers With Storage Units 

         Outside the Required Temperature Range During a 2-Week Period .........37 

     F: 	Vaccines for Children Program Vaccine Management Requirements 

         That Providers Did Not Meet.....................................................................41 

     G: 	Required Vaccines for Children Program Documents Not 

         Provided by Providers................................................................................43 

     H: 	Activities Missing From Selected Grantees’ Vaccines for Children 

         Program Fraud and Abuse Policies ............................................................45 

     I: Agency Comments......................................................................................46 

Acknowledgments..................................................................................................48

                   OBJECTIVE
                   To determine the extent to which selected Vaccines for Children (VFC)
                   program providers and grantees adhered to the Centers for Disease Control
                   and Prevention’s (CDC) requirements for vaccine management.

                   BACKGROUND
                   The VFC program is a Medicaid benefit that provides free vaccines to
                   eligible children.1, 2 The Centers for Medicare & Medicaid Services
                   (CMS) delegates the program’s implementation to CDC, which purchases
                   VFC vaccines and distributes them to VFC providers.3 CMS reimburses
                   CDC for the cost of the vaccines and for program management. In 2010,
                   the program cost $3.6 billion and approximately 44,000 providers
                   participated.4, 5 These providers ordered approximately 82 million VFC
                   vaccine doses to administer to an estimated 40 million children.6, 7
                   Children eligible to participate in the VFC program may not otherwise be
                   vaccinated because of inability to pay. They include Medicaid-eligible,
                   uninsured, American Indian/Alaska Native, and/or underinsured children
                   who receive care through a Federally Qualified Health Center (FQHC) or
                   Rural Health Clinic (RHC).8, 9 In 2011, approximately 70 percent of
                   VFC-eligible children were enrolled in Medicaid.10
                   Vaccines administered through the VFC program are licensed by the Food
                   and Drug Administration (FDA) and approved for program inclusion by
                   CDC.11 Licensed vaccines are labeled with required storage temperature




                   1
                       Omnibus Budget Reconciliation Act of 1993, P.L. 103-66 § 13631.

                   2
                       Social Security Act (SSA), § 1928(a); 42 U.S.C. § 1396s(a).

                   3
                       CMS, Delegation Memorandum, June 30, 1994.

                   4
                    Department of Health and Human Services, CDC Justification of Estimates for Appropriation Committees, 

                   Fiscal Year 2011.

                   5
                     CDC, VFC: Summary Reports, 2010. Accessed at 

                   http://www2a.cdc.gov/nip/irar/grantee/granteeinfo.asp#grptg on September 27, 2011.

                   6
                       CDC, VFC vaccine dose data, provided by CDC on January 14, 2011. 

                   7
                       CDC, national population estimate for 2011, provided by CDC on October 4, 2011.

                   8
                     CDC, VFC Operations Guide, Module 1: Overview, p. 1, 2011. Accessed at 

                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on

                   February 2, 2011.

                   9
                       SSA, § 1928(b)(2); 42 U.S.C. § 1396s(b)(2).

                   10
                        CDC, national population estimate for 2011, provided by CDC on October 4, 2011.

                   11
                      VFC vaccines must be approved by the Advisory Committee on Immunization Practices. CDC, VFC: The

                   ACIP-VFC Vaccine Resolutions, 2010. Accessed at http://www.cdc.gov/vaccines/programs/vfc/acip-vfc­
                   resolutions.htm on September 13, 2010.



Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                        1
                   ranges and expiration dates.12 Vaccines must be stored within the required
                   ranges to ensure that the vaccines maintain the highest possible level of
                   strength (i.e., potency) and effectiveness (i.e., efficacy). Additionally,
                   vaccines must not be administered after their expiration dates because they
                   may lose potency and efficacy, reducing their ability to provide maximum
                   protection against preventable diseases.13 VFC vaccines protect children
                   against 16 preventable diseases:
                           diphtheria                                                   mumps
                           haemophilus influenzae type b                                pertussis
                           hepatitis A                                                  pneumococcal disease
                           hepatitis B                                                  polio
                           human papillomavirus                                         rotavirus
                           influenza                                                    rubella (German measles)
                           measles                                                      tetanus
                           meningococcal disease                                        varicella (chickenpox)

                   See Appendix A for a list of all VFC program-covered vaccines and the
                   required storage temperature ranges.
                   VFC providers may receive funding for the same program-covered
                   vaccines through other public and private funding sources. Additional
                   public funding sources include the Section 317 grant program and State
                   budgets.14 Alternatively, providers may purchase these vaccines with their
                   own funds to administer to children who are not VFC-eligible (e.g.,
                   individuals with health insurance that covers the cost of the vaccines).
                   Most providers store publicly and privately purchased vaccines in the
                   same freezers and refrigerators. Providers must distinguish publicly
                   purchased vaccines from privately purchased vaccines to ensure that
                   vaccines are administered to the corresponding populations.15 For



                   12
                      21 CFR §§ 610.50, 610.53, and 610.60-62. FDA, Vaccine Product Approval Process, 2009. Accessed at
                   http://www.fda.gov/BiologicsBloodVaccines/DevelopmentApprovalProcess/BiologicsLicenseApplicationsBLA
                   Process/ucm133096.htm on November 29, 2010.
                   13
                      Vaccine expiration dates may be extended with FDA approval if the manufacturer verifies the sterility and
                   potency of the vaccine. FDA, Vaccine Safety Questions and Answers. Accessed at
                   http://www.fda.gov/BiologicsBloodVaccines/SafetyAvailability/VaccineSafety/ucm133806.htm on
                   January 24, 2012.
                   14
                       The Section 317 grant program consists of Federal discretionary funds that may be used to purchase vaccines
                   for non-VFC-eligible populations (children and adults). States may also contribute funds to purchase vaccines
                   for these populations. CDC, VFC Operations Guide, Module 8: Vaccine Accountability, p. 1, 2011. Accessed
                   at http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on
                   February 2, 2011.
                   15
                      CDC, VFC Operations Guide, Module 6: Vaccine Management, p. 11, 2011. Accessed at
                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on
                   February 2, 2011.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                            2
                   example, providers must ensure and be able to document that only
                   VFC-eligible children receive VFC-purchased vaccines.16
                   VFC Program Management and Oversight
                   CDC manages the VFC program through 61 grantees that implement the
                   program at the State and local levels. Grantees include all 50 State health
                   departments as well as public health agencies in 6 metropolitan areas and
                   5 U.S. territories and protectorates.17 Each grantee recruits and enrolls
                   providers in its jurisdiction. A variety of provider types participate,
                   including private providers (e.g., individuals or groups), public health
                   departments, FQHCs/RHCs, other public health clinics (e.g., maternal and
                   child health programs), and private hospitals.18 Approximately 70 percent
                   of VFC providers are private providers.19
                   Provider Vaccine Management Requirements. VFC providers must
                   perform required activities in 10 categories established in the Vaccine
                   Management Module of CDC’s VFC Operations Guide:20
                          1. Vaccine Storage Equipment
                          2. Vaccine Storage Practices
                          3. Temperature Monitoring
                          4. Vaccine Storage and Handling Plans
                          5. Vaccine Personnel
                          6. Vaccine Waste
                          7. Vaccine Security and Equipment Maintenance
                          8. Vaccine Ordering and Inventory Management
                          9. Receiving Vaccine Shipments
                          10. Vaccine Preparation



                   16
                      CDC, VFC Operations Guide, Module 3: Provider Recruitment and Enrollment, pp. 4-5, 2011. Accessed at
                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on
                   February 2, 2011.
                   17
                      The six metropolitan public health agencies are those of Chicago, the District of Columbia, Houston,
                   New York City, Philadelphia, and San Antonio. The five territory and protectorate public health agencies are
                   those of American Samoa, Guam, the Northern Mariana Islands, Puerto Rico, and the U.S. Virgin Islands.
                   CDC, VFC: State/Territory VFC Coordinators. Accessed at
                   http://www.cdc.gov/vaccines/programs/vfc/contacts-state.htm on October 24, 2011.
                   18
                        CDC, VFC provider data, provided by CDC on August 22, 2010.
                   19
                      CDC, VFC/AFIX Activities Query Results, 2010. Accessed at
                   http://www2a.cdc.gov/nip/irar/grantee/granteeinfo.asp#grptg on October 4, 2011.
                   20
                      CDC, VFC Operations Guide, Module 6: Vaccine Management, pp. 6-11, 2011. Accessed at
                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on
                   February 2, 2011.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                            3
                   Appendix B lists all required vaccine management activities within each
                   category. For example, the Vaccine Storage Equipment category does not
                   allow the use of dormitory (dorm)-style storage units for permanent VFC
                   vaccine storage because such units are not able to reliably maintain
                   temperatures within required ranges.21
                   In addition, the VFC Operations Guide establishes documentation
                   requirements for VFC providers. Each provider must maintain the
                   following documents related to vaccine management:22
                           1.	 training records,
                           2.	 documentation demonstrating the provider’s process to ensure that
                               VFC vaccines are administered only to the VFC-eligible
                               population,
                           3.	 a routine storage and handling plan,
                           4.	 an emergency storage and handling plan,
                           5.	 a current provider enrollment form,
                           6.	 a current provider profile form, and
                           7. temperature-monitoring logs.
                   Meeting these requirements enables providers to (1) ensure that vaccines
                   provide children with maximum protection against preventable diseases
                   and (2) reduce the risk of fraud, waste, and abuse in the VFC program.
                   The VFC Operations Guide also reflects FDA’s vaccine storage
                   requirements.23, 24 Specifically, vaccines must be stored within the
                   required temperature ranges from the time they are shipped from the
                   manufacturer until they are administered by the provider.25 For example,
                   the varicella vaccine, which protects against the virus that causes

                   21
                       A dorm-style unit is a small combination refrigerator-freezer unit outfitted with a single external door. Two
                   types of storage units are acceptable for storing VFC vaccines: (1) a refrigerator that has a separate freezer
                   compartment with separate exterior door (combined unit) or (2) a stand-alone, single-purpose freezer or
                   refrigerator (stand-alone). CDC, VFC Operations Guide, Module 6: Vaccine Management, p. 7, 2011.
                   Accessed at http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr­
                   files.pdf on February 2, 2011.
                   22
                      CDC, VFC Operations Guide, Module 6: Vaccine Management, pp. 6-11, and Module 3: Provider
                   Recruitment and Enrollment, pp. 2-3, 2011. Accessed at
                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on
                   February 2, 2011. Certain documents, such as temperature-monitoring logs, must be maintained for at least
                   3 years.
                   23
                      CDC, Vaccine Storage and Handling Guide, September 30, 2011. Accessed at
                   http://www.cdc.gov/vaccines/recs/storage/guide/vaccine-storage-handling.pdf on February 7, 2012.
                   24
                      CDC, VFC Operations Guide, Module 6: Vaccine Management, p. 3, 2011. Accessed at
                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on
                   February 2, 2011.
                   25
                        Ibid., pp. 2-3.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                                 4
                   chickenpox, must be stored at or below 5 degrees Fahrenheit (°F).26
                   Exposure to a temperature above 5°F reduces the vaccine’s ability to
                   provide children with maximum protection against chickenpox.
                   Depending on the type of vaccine, providers must store vaccines in a
                   central area of either a freezer or refrigerator.27 Cold air circulation is
                   maximized when vaccines are stored in the center of a storage unit, where
                   temperatures are also most stable.28 In other areas of freezers and
                   refrigerators—such as spaces near walls, coils, floor, vents, and doors—
                   temperatures are not as stable as those in the center of the units.29
                   Vaccines requiring refrigeration must be stored between 35°F and 46°F,
                   and vaccines requiring freezer storage must be stored at or below 5°F .30
                   Providers must monitor all vaccine storage temperatures using a certified,
                   calibrated thermometer to ensure that vaccines are not exposed to
                   temperatures outside the required ranges.31 Additionally, to obtain a
                   temperature reading that is representative of the storage unit, a
                   thermometer must be placed in a central area inside each freezer and
                   refrigerator used to store VFC vaccines.32
                   Providers must also monitor vaccine expiration dates and ensure that
                   expired vaccines are not administered.33, 34 Providers must notify their
                   respective grantees if vaccines expire and follow grantee guidance on how



                   26
                      FDA, Varicella Vaccine Virus Package Insert (Varivax, Frozen), February 7, 2012. Accessed at
                   http://www.fda.gov/downloads/BiologicsBloodVaccines/Vaccines/ApprovedProducts/UCM142813.pdf on
                   February 13, 2012.
                   27
                      CDC, VFC Operations Guide, Module 6: Vaccine Management, p. 9, 2011. Accessed at
                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on
                   February 2, 2011.
                   28
                     CDC, Vaccine Storage and Handling Toolkit, Appropriate Vaccine and Diluent Storage Conditions, pp. 2-3.

                   Accessed at http://www2a.cdc.gov/vaccines/ed/shtoolkit/ on December 7, 2009.

                   29

                         Ibid.
                   30
                      CDC, VFC Operations Guide, Module 6: Vaccine Management, p. 3, 2011. Accessed at
                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on
                   February 2, 2011. Storage temperature requirements are also listed in degrees Celsius (°C). Refrigerated
                   vaccines must be stored between 2°C and 8°C (which convert to 35.6°F and 46.4°F, respectively) and vaccines
                   requiring freezer storage must be stored at or below -15°C (which converts to 5.0°F).
                   31
                      Ibid., p. 4. A variety of thermometer types may be used, including digital, minimum-maximum, standard
                   fluid-filled, continuous recording, and dial thermometers. CDC, Vaccine Storage and Handling Toolkit,
                   Vaccine Storage Equipment, pp. 12-16. Accessed at http://www2a.cdc.gov/vaccines/ed/shtoolkit/ on
                   December 7, 2009.
                   32
                      CDC, Vaccine Storage and Handling Toolkit, Vaccine Storage Equipment, p. 16. Accessed at
                   http://www2a.cdc.gov/vaccines/ed/shtoolkit/ on December 7, 2009.
                   33
                      CDC, VFC Operations Guide, Module 6: Vaccine Management, pp. 9 and 11, 2011. Accessed at
                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on
                   February 2, 2011.
                   34
                      CDC, Vaccine Storage and Handling Toolkit, Vaccine Personnel, p. 1. Accessed at
                   http://www2a.cdc.gov/vaccines/ed/shtoolkit/ on December 7, 2009.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                        5
                   to either return expired vaccines for excise tax credit or dispose of them.35
                   Further, providers must remove the expired vaccines from freezers and
                   refrigerators with nonexpired vaccines to prevent them from being
                   mistakenly administered.36 Finally, providers must notify their respective
                   grantees upon identifying vaccines that will expire before the providers
                   can administer them.37 Grantees will determine the appropriate action to
                   take to minimize vaccine waste.
                   Grantee Oversight Requirements. Grantees must meet the oversight
                   requirements in CDC’s VFC Operations Guide. For example, each
                   grantee is responsible for developing and maintaining a vaccine
                   accountability system that ensures that:38
                           1.	 VFC vaccines are ordered on the basis of the size of each 

                               provider’s VFC-eligible population; 

                           2.	 VFC vaccines are administered only to VFC-eligible children;
                           3.	 VFC vaccine loss and waste are minimized and measured; and
                           4. the VFC program is protected against fraud and abuse.
                   Grantees must develop a fraud and abuse policy that addresses
                   (1) prevention and detection of fraud and abuse and (2) investigation and
                   resolution of fraud and abuse allegations. The policy must include the
                   following eight activities and describe how they are integrated into the
                   grantees’ daily VFC program administrative activities:39
                           1.	 identifying oversight personnel,
                           2.	 developing a fraud and abuse referral procedure,
                           3.	 creating an allegation and referral database,
                           4.	 developing a procedure for monitoring the program,
                           5.	 developing training materials for personnel,



                   35
                      CDC, VFC Operations Guide, Module 6: Vaccine Management, pp. 6 and 11, 2011. Accessed at 

                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on

                   February 2, 2011.

                   36
                        Ibid., p. 11.

                   37
                        Ibid., p. 9.

                   38
                      CDC, VFC Operations Guide, Module 8: Vaccine Accountability, p. 1, 2011. Accessed at 

                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on

                   February 2, 2011.

                   39
                      CDC, VFC Operations Guide, Module 10: Fraud and Abuse, pp. 4-6, 2011. Accessed at

                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on

                   February 2, 2011.



Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                     6
                        6. comparing enrolled providers to exclusion databases,40
                        7. developing a procedure for reporting provider terminations, and
                        8. creating a protocol to annually review fraud and abuse policies.
                   When a provider enrolls in the program, its grantee conducts a one-time
                   initial site visit to educate the provider’s staff about VFC program
                   requirements and to ensure that the provider has appropriate equipment to
                   implement the requirements.41 For example, the grantee should ensure
                   that the provider has vaccine storage freezers and refrigerators that meet
                   CDC requirements.42
                   Grantees are also required to conduct periodic site visits of VFC providers.
                   Since January 2011, grantees have been required to visit 50 percent of
                   their providers each year.43 During these site visits, grantees interview
                   providers and observe the storage of vaccines to complete the VFC Site
                   Visit Questionnaire to evaluate whether providers meet program
                   requirements for vaccine storage, management, and recordkeeping.44, 45
                   Grantees must develop corrective action plans for providers whose
                   answers to priority questions on the VFC Site Visit Questionnaire indicate
                   that they are not complying with program requirements. During 2010 site
                   visits, grantees identified vaccine management deficiencies and developed
                   corrective action plans for 57 percent of private providers and 46 percent
                   of public providers.46 Providers may be suspended or terminated from the


                   40
                      CDC, VFC Operations Guide, Module 9: Quality Assurance, p. 3, 2011. Accessed at
                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on
                   February 2, 2011. The Department of Health and Human Services (HHS) Office of Inspector General (OIG)
                   maintains a database of providers excluded from participating in federally funded health care programs on the
                   “List of Excluded Individuals/Entities.” Providers employing persons on this list may not participate in the VFC
                   program.
                   41
                       CDC, VFC Operations Guide, Module 3: Provider Recruitment and Enrollment, pp. 2 and 15, 2011.
                   Accessed at http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr­
                   files.pdf on February 2, 2011.
                   42
                     Ibid., p. 15. Grantees should ensure that providers understand the vaccine management requirements in the
                   VFC Operations Guide, including requirements regarding vaccine storage equipment.
                   43
                      CDC, VFC Operations Guide, Module 9: Quality Assurance, p. 2, 2011. Accessed at
                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on
                   February 2, 2011. At least half of the VFC providers should be visited in 1 year and the remaining half the
                   following year. Prior to January 2011, grantees were required to conduct site visits of 25 percent of VFC
                   providers per year, and there was no requirement specifying which providers were to be visited each year.
                   44
                      CDC created a VFC Provider Site Visit Questionnaire—updated periodically—that grantees must use during
                   their site visits. Priority questions that providers do not meet automatically require corrective action.
                   45
                      CDC, VFC Operations Guide, Module 9: Quality Assurance, p. 2, 2011. Accessed at
                   http://www.cdc.gov/vaccines/programs/vfc/downloads/vfc-op-guide/vfc-op-guide-all-chaptr-files.pdf on
                   February 2, 2011.
                   46
                      CDC, VFC/AFIX Activities Query Results, 2010. Accessed at
                   http://www2a.cdc.gov/nip/irar/grantee/granteeinfo.asp#grptg on October 4, 2011. Percentages are based on the
                   total number of private and public providers with a site visit during 2010.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                           7
                   program if they do not meet requirements after implementing corrective
                   action plans.
                   VFC grantees must meet the vaccine management requirements in the
                   VFC Operations Guide. For example, grantees must train VFC providers
                   on appropriate vaccine ordering, handling, storage, and waste reporting.
                   In addition, grantees must give providers an overall vaccine management
                   plan template to ensure that providers meet CDC’s vaccine management
                   requirements. Grantees are also required to ensure that vaccines remain
                   effective by developing standard operating procedures for providers that
                   address vaccine ordering, receiving, storage, handling, inventory
                   management, and disposal. Grantees must also develop their own vaccine
                   management policies and procedures based on CDC’s VFC program
                   requirements. For example, grantees must establish their own policies
                   regarding the types of thermometers that providers may use to monitor
                   VFC freezer and refrigerator temperatures.


                   METHODOLOGY
                   Sample Selection
                   The VFC program is implemented through 61 VFC grantees in
                   collaboration with approximately 44,000 providers. The scope of this
                   evaluation did not allow for the review of vaccine management practices
                   of all grantees and providers. Therefore, we selected a purposive sample
                   of 45 providers within 5 grantee jurisdictions to conduct site visits and
                   collect documentation. We selected the five program grantees with the
                   highest VFC vaccine order volumes during fiscal year (FY) 2010:
                   California, Florida, Georgia, New York City, and Texas.47 These grantees
                   ordered 36 percent of all VFC vaccines during FY 2010. Appendix C lists
                   the VFC vaccine order volume for each of the five selected grantees and
                   the total VFC vaccine order volume for 2010.
                   We visited nine VFC providers within each grantee jurisdiction. To ensure
                   diversity of providers, we selected providers according to three
                   characteristics: provider type (i.e., private provider, public health
                   department, FQHC/RHC, other type of public health clinic, or private
                   hospital), vaccine order volume (i.e., high or low), and location type




                   47
                        CDC, VFC vaccine dose data, provided by CDC on December 20, 2010.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)      8
                   (i.e., rural or urban).48, 49 Because we also met with grantee staff, we
                   limited our sample of providers to those within 100 miles of each grantee’s
                   office location. Appendix D lists (1) the number of providers within the
                   five selected grantee jurisdictions, (2) their three characteristics, and
                   (3) the number of providers in our sample for each characteristic.
                   Data Collection
                   VFC provider site visits and interviews. We conducted site visits of the
                   45 selected VFC providers to determine whether they met the 10 vaccine
                   management requirements. We notified providers of our site visits
                   2 weeks in advance and conducted our site visits in April and May 2011.
                   We conducted structured interviews using standardized data collection
                   instruments. We interviewed each provider’s VFC coordinator(s) on the
                   provider’s procedures for vaccine management. We also used a
                   standardized data collection instrument to observe VFC vaccine storage
                   practices and review storage and temperature-monitoring equipment to
                   determine whether providers met CDC requirements. Finally, we checked
                   vaccine expiration dates to determine whether VFC vaccines were expired
                   on the days of our site visits.
                   Independent temperature measurement. We independently measured
                   temperatures of the vaccine storage equipment (i.e., freezers and
                   refrigerators) for the 2-week period following our site visits (2-week
                   period). We used a commercially available calibrated
                   temperature-recording device—TempTale®—that met National Institute of
                   Standards and Technology standards.50, 51 At each selected provider site,
                   we placed one TempTale® in a VFC vaccine freezer and one in a VFC
                   vaccine refrigerator. Each TempTale® recorded temperatures every
                   15 minutes for 2 weeks.52 For providers with more than one freezer and


                   48
                      Using CDC’s Economic Order Quantity, we defined high-volume providers as those who receive at least
                   800 vaccine doses per year and low-volume providers as those who receive 799 or fewer vaccine doses per
                   year.
                   49
                      Urban areas were located within a core-based statistical area (CBSA) and rural areas were not. CBSAs
                   include both metropolitan statistical areas (i.e., core urban areas with populations of 50,000 or more) and
                   micropolitan statistical areas (i.e., core urban areas with populations between 10,000 and 50,000). U.S. Census
                   Bureau, Metropolitan and Micropolitan Statistical Areas, accessed at
                   http://www.census.gov/population/www/metroareas/metroarea.html on September 9, 2010.
                   50
                      We purchased TempTale®4 monitors (TempTale®) and analytic services from a qualified contractor. The
                   TempTale® monitor temperature range is -22.0°F to 158.0°F and the accuracy range is ±2.0°F from -22.0°F to
                   0°F, ±1.0°F from 0°F to 122.0°F, and ±2.0°F from 122.0°F to 158.0°F.
                   51
                      The National Institutes of Standards and Technology is an agency of the U.S. Department of Commerce that
                   develops measurement and accuracy standards and reference materials. It also provides certification and
                   calibration services to establish conformity and quality across devices.
                   52
                     Four selected providers did not have VFC vaccines in their freezers on the days of our site visits, so we did
                   not place TempTales® in their freezers. We placed TempTales® in a total of 86 freezers and refrigerators during
                   our site visits.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                           9
                   one refrigerator storing VFC vaccines, we selected the freezer and
                   refrigerator with the most VFC vaccines at the time of our visit. To ensure
                   that the TempTale® was measuring the same temperature as the provider’s
                   thermometer, we placed the TempTale® next to the probe of the provider’s
                   thermometer. For providers with more than one thermometer per unit, we
                   placed the TempTale® next to the thermometer closest to the center of the
                   unit to ensure that the temperature we recorded was representative of the
                   temperature in the unit.
                   Provider documentation. One week prior to our site visits, we gave the
                   selected providers a list of requested documents. During site visits, we
                   collected these documents, which included the providers’ policies and
                   procedures for VFC vaccine storage and management, their overall
                   vaccine management plans, and their routine and emergency storage and
                   handling plans. We also collected training records, documentation used to
                   ensure that VFC vaccines are administered only to VFC-eligible children
                   (for example, sample eligibility screening forms or vaccine-use logs),
                   provider enrollment and profile forms, and temperature-monitoring logs
                   for 2010. We followed up with providers at least once to request
                   documents that were not available during our site visits. Providers also
                   mailed us their temperature-monitoring logs for the 2-week period when
                   we were independently measuring freezer and refrigerator temperatures.
                   VFC grantee interviews and documentation. We interviewed the staff of
                   each of the five VFC grantees to determine the extent to which the
                   grantees met the VFC oversight requirements, including establishing
                   accountability systems and developing comprehensive fraud and abuse
                   policies. We conducted a structured interview with each grantee and
                   collected documentation—such as training materials, program guidance,
                   and records of their provider site visits—to assess the grantees’ provider
                   oversight activities. We collected site visit records only for those
                   providers with a grantee site visit in the 12 months preceding our site visit
                   (i.e., between April 15, 2010, and April 15, 2011). Additionally, because
                   providers may submit their annual enrollment and profile forms to
                   grantees electronically, we also requested these documents from the
                   grantees.
                   Data Analysis
                   Vaccine storage temperatures. We analyzed freezer and refrigerator
                   temperatures during the 2-week period to determine the extent to which
                   VFC vaccines were exposed to temperatures outside the required ranges.
                   Specifically, we used the TempTale® data to determine how many freezers


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)        10
                   and refrigerators were outside the required temperature ranges for at least
                   5 cumulative hours during the 2-week period. Temperatures recorded by
                   TempTale® devices were analyzed to the nearest tenth of a degree
                   Fahrenheit. Any temperature higher than 5.0°F was considered out of
                   range for freezers, and any temperature lower than 35.6°F or higher than
                   46.4°F was considered out of range for refrigerators. These ranges are
                   based on exact Celsius-to-Fahrenheit conversions; however, in this report
                   we have used the rounded temperatures (5°F, 35°F, and 46°F) listed in
                   both CDC and FDA guidance documents.
                   We determined the longest span of consecutive hours each freezer and
                   refrigerator was outside the required temperature range and the number
                   and cost of vaccines in these units. Cumulative and consecutive hours
                   outside the required temperature ranges were based on number of minutes
                   the TempTale® recorded out-of-range temperatures. We also determined
                   the mean temperature of each freezer and refrigerator that was out of range
                   for at least 5 hours during the 2-week period, as well as the standard
                   deviation, temperature range, storage unit type, and thermometer type(s).
                   We compared temperature data from each TempTale® to the VFC
                   providers’ temperature-monitoring logs for the 2-week period. To do this,
                   we used the temperature recorded by the TempTale® at the time closest to
                   each temperature recorded by the providers for the 2-week period. For
                   example, if a provider recorded a temperature at 9 a.m., we compared it to
                   the TempTale® measurement at the 15-minute interval closest to 9 a.m.
                   Temperatures recorded by providers on monitoring logs were generally
                   rounded to the nearest degree. To maintain accuracy, we did not round our
                   independently measured temperatures for our analysis; however, in this
                   report we have rounded temperatures to the nearest degree. We calculated
                   the absolute value of the difference between the two temperatures and then
                   calculated minimum, maximum, and mean differences for each provider
                   and across all providers.53
                   We also reviewed providers’ temperature-monitoring logs for 2010 to
                   determine how often providers indicated that VFC vaccines were exposed
                   to temperatures outside the required ranges for that year. Each provider
                   had approximately 960 opportunities to record out-of-range temperatures
                   during 2010, based on the following assumptions: (1) one freezer and one
                   53
                      Comparison does not apply for four providers without freezers storing VFC vaccines. In addition, we were
                   unable to compare all recorded freezer temperatures for 21 providers to independently measured temperatures
                   because of the temperature log formats. For example, the minimum possible recorded freezer temperature was
                   ≤ 3°F on many providers’ temperature logs. In these instances, we assumed the recorded temperature was 3°F
                   and calculated a difference only if the TempTale® temperature for the same time was greater than 3°F.
                   Comparison was not possible for seven providers’ freezers.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                      11
                   refrigerator per provider, (2) twice-daily temperature recordings for both
                   the freezer and refrigerator, and (3) 20 days of temperature recordings per
                   month for 12 months.
                   Vaccine expiration. We determined the number of selected providers that
                   had expired vaccines on the day of each site visit. We calculated the total
                   number and cost of expired vaccines. We also determined how many days
                   the expired vaccines were past expiration and whether they were separated
                   from nonexpired vaccines. Finally, we determined whether providers
                   notify grantees upon identifying VFC vaccines that will expire before the
                   providers can administer them.
                   Vaccine management practices. We reviewed data from provider
                   interviews and observations, as well as provider-supplied documentation,
                   to determine which of the required activities in the 10 categories the
                   providers had performed. Providers had to perform all required activities
                   within each category for us to conclude that they met the requirements for
                   that category. Additionally, if our observations during the site visits were
                   not consistent either with providers’ documentation or with interview
                   answers, we used our observations to determine whether the providers met
                   the requirements. For example, the Vaccine Storage Practices category
                   includes a requirement for providers to rotate VFC vaccine stock by
                   expiration date; for each vaccine type, providers must place vaccines with
                   closer expiration dates in front of those with more distant expiration dates.
                   If providers told us that they rotate vaccines as required but we observed
                   vaccines that were not placed in order by expiration date, we determined
                   that the providers did not meet the requirements in the Vaccine Storage
                   Practices category.
                   We also determined whether each selected provider had the seven vaccine
                   management documents required by the VFC Operations Guide. These
                   seven required documents are listed on page 4 of this report.
                   Grantee oversight. We reviewed grantee interview responses and
                   supporting documentation to determine the extent to which the five
                   grantees met grantee vaccine accountability requirements established in
                   the VFC Operations Guide. These four oversight requirements are listed
                   on page 6.
                   We also determined the extent to which the selected grantees’ fraud and
                   abuse policies addressed eight categories of activities required by the VFC
                   Operations Guide. The list of these eight activities begins on page 6.




Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)        12
                   Grantees had to meet all of the fraud and abuse policy requirements within
                   each category for us to conclude that they met the overall requirement for
                   that category.
                   In addition, we determined whether each of the five selected grantees
                   provided required vaccine management materials to the nine VFC
                   providers in their jurisdictions, including overall vaccine management
                   plan templates and standard operating procedures. We also compared our
                   site visit results with the grantee site visit results for the 25 providers that
                   had grantee site visits during the 12 months prior to our site visits
                   (between April 15, 2010, and April 15, 2011). We conducted this
                   comparison to determine whether providers corrected grantee-identified
                   deficiencies and continued to meet vaccine management requirements
                   over time. This analysis was based on our findings and grantees’ findings
                   on 22 priority questions related to vaccine management. These questions
                   were included both on the grantee VFC Site Visit Questionnaire and in our
                   data collection instruments.
                   Limitations
                   Our results apply only to our sample of 5 grantees and 45 providers and
                   are not projectable to the population of 61 VFC grantees or approximately
                   44,000 providers.
                   TempTale® measurements and differences between TempTale®
                   measurements and providers’ recorded temperatures were not adjusted to
                   account for each device’s accuracy range. The accuracy range for
                   TempTale® devices is ±2°F from -22°F to 0°F and ±1°F from 0°F to
                   122°F. No standard accuracy range was established for the providers’
                   temperature-monitoring devices because of the wide variety of devices
                   used by providers.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)           13
                   FINDINGS
                   VFC vaccines stored by 76 percent of 45 providers we
                   reviewed were exposed to inappropriate temperatures
                   Although the majority of storage temperatures we independently measured
                   during a 2-week period were within the required ranges, VFC vaccines
                   stored by 76 percent—34 of 45—of the selected providers were exposed
                   to inappropriate temperatures for at least 5 cumulative hours during that
                   period.54 We also found that all 45 providers had recorded temperatures
                   that differed from our independently measured temperatures during the
                   2-week period.
                   Sixteen of the thirty-four providers had both freezers and refrigerators that
                   exposed VFC vaccines to temperatures outside the required ranges for 5 or
                   more hours during the 2-week period. If the 34 providers’ freezer and
                   refrigerator temperatures followed this same pattern for a year, these
                   storage units could expose vaccines to inappropriate temperatures for at
                   least 130 hours over 1 year.55 On the days of our site visits, the
                   34 providers had 9,173 VFC vaccine doses, worth approximately
                   $368,820. See Appendix E for cumulative and consecutive hours during
                   which these 34 providers’ freezers and refrigerators were outside the
                   required ranges, as well as additional storage temperature information for
                   the 2-week period.
                   Freezer storage. VFC vaccines stored in 28 of 41 selected providers’
                   freezers were exposed to temperatures above the maximum permitted
                   temperature (5°F) for at least 5 cumulative hours during the 2-week
                   period.56, 57 Eleven of these providers’ freezers were above 5°F for more
                   than 120 hours, representing at least 36 percent of the total 2-week period
                   of our independent temperature measurement. One provider’s freezer was
                   above 5°F for 94 percent of the total 2-week period, including a span of
                   44 consecutive hours. Additionally, three providers’ freezers had a
                   maximum temperature of at least 33°F during the 2-week period, and one
                   of these reached 44°F. Exposure to temperatures above 5°F may cause


                   54
                      Eighty-three percent and eighty-seven percent of independently measured freezer and refrigerator 

                   temperatures, respectively, were within the required temperature ranges during the 2-week period.

                   55
                      Assuming each freezer or refrigerator was outside the required range for at least 5 hours during all 26 2-week 

                   periods for 1 calendar year. 

                   56
                      Four selected providers did not have VFC vaccines stored in freezers on the days of our site visits. 

                   57
                      The accuracy range for TempTale® devices placed in providers’ freezers is ±2°F from -22°F to 0°F and ±1°F 

                   from 0°F to 122°F. Eighty-nine percent of our independently measured freezer temperatures were within 1°F 

                   of the required range, and 93 percent of our independently measured freezer temperatures were within 2°F.



Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                           14
                   vaccines to lose their ability to provide maximum protection against
                   preventable disease. The 28 providers stored 992 VFC vaccine doses in
                   their freezers on the days of our site visits, worth approximately $67,660.
                   Refrigerator storage. VFC vaccines stored in 22 of 45 selected providers’
                   refrigerators were exposed to temperatures outside the required range
                   (above 46°F, below 35°F, or both) for at least 5 cumulative hours during
                   the 2-week period.58 Four providers’ refrigerated vaccines were exposed
                   to temperatures above 46°F for at least 5 cumulative hours during the
                   2-week period, and 19 providers’ refrigerated vaccines were exposed to
                   temperatures below 35°F for at least 5 hours. One provider’s refrigerated
                   VFC vaccines were exposed to temperatures both above 46°F and below
                   35°F for at least 5 hours during the 2-week period. The highest and lowest
                   independently measured refrigerator temperatures among the
                   22 refrigerators were 60°F and 21°F, respectively. Exposing vaccines to
                   high or low temperatures can reduce their potency and efficacy, increasing
                   the risk that the vaccine may not provide children with maximum
                   protection against preventable diseases. The 22 providers stored
                   8,181 VFC vaccine doses in their refrigerators on the days of our site
                   visits, worth approximately $301,160.
                   Six providers’ refrigerated VFC vaccines were exposed to temperatures
                   outside the required range for more than 120 hours, including one
                   provider’s refrigerator that was above 46°F for 265 hours (79 percent) of
                   the total 2-week period. Vaccines of eight providers whose refrigerated
                   vaccines were exposed to temperatures outside the required range for at
                   least 5 hours were exposed to freezing temperatures (i.e., temperatures at
                   or below 32°F) during the 2-week period, and one refrigerator storing
                   VFC vaccines had an average temperature below 32°F for the 2-week
                   period. See Photo 1 for an example of a refrigerated vaccine exposed to
                   freezing temperatures, as demonstrated by the ice on the exterior of the
                   box (circled).




                   58
                      The accuracy range for TempTale® devices placed in providers’ refrigerators is ±1°F from 0°F to 122°F.
                   Ninety-two percent of our independently measured refrigerator temperatures were within ±1°F of the required
                   range.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                       15
                   Photo 1: Box of Refrigerated Influenza Vaccine Exposed to Freezing
                   Temperatures (Note Ice in Circle)




                   All 45 providers recorded temperatures that differed from our
                   independently measured temperatures
                   All 45 selected providers recorded temperatures that differed from our
                   independently measured temperatures at least once during the 2-week
                   period. These differences indicate that providers’ thermometers were not
                   representing accurate temperatures or providers were not accurately
                   recording the temperature readings.
                   Twenty-five providers recorded at least 1 freezer temperature and
                   24 providers recorded at least 1 refrigerator temperature that differed from
                   our independent measurement by at least 5ºF. For example, one provider
                   recorded a refrigerator temperature that differed from our independent
                   measurement by 17°F. This provider recorded a temperature of 40°F on
                   the temperature-monitoring log, while the TempTale® recorded a
                   temperature of 23°F for the same time period, well below the temperature
                   necessary to inappropriately freeze the vaccines and reduce their potency
                   and efficacy. On average, providers’ recorded freezer and refrigerator
                   temperatures varied from our independently measured temperatures by
                   4°F and 2°F, respectively.59



                   59
                      Comparison does not apply for four providers without freezers storing VFC vaccines. In addition, we were
                   unable to compare all recorded freezer temperatures for 21 providers to independently measured temperatures
                   because of the temperature log formats. For example, the minimum possible recorded freezer temperature was
                   ≤ 3°F on many providers’ temperature logs. In these instances, we assumed the recorded temperature was 3°F
                   and calculated a difference only if the TempTale® temperature for the same time was greater than 3°F.
                   Comparison was not possible for seven providers’ freezers.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                      16
                   In addition, only 12 of the 45 selected providers’ temperature-monitoring
                   logs for 2010 included a temperature outside the required storage ranges.
                   Further, less than 1 percent of these providers’ total temperature
                   recordings were outside the required ranges.60 Three of the twelve
                   providers did not document any actions taken as a result of temperatures’
                   being outside the required ranges. The remaining nine providers
                   documented actions such as notifying the appropriate vaccine
                   manufacturer, notifying the grantee, adjusting the storage unit
                   temperature, and moving the vaccines to another unit until the problem
                   was resolved. If the same pattern of differences we found during the
                   2‐week period between the TempTale®-recorded temperatures and the
                   provider-recorded temperatures existed throughout 2010, VFC vaccines
                   were likely exposed to temperatures outside required ranges more
                   frequently than providers documented.


                   Sixteen of forty-five providers we reviewed had
                   expired VFC vaccines
                   According to FDA requirements, providers should not administer expired
                   vaccines because they may not provide maximum protection against
                   preventable diseases.61 Additionally, providers must remove expired
                   vaccines from freezers and refrigerators containing nonexpired vaccines to
                   prevent mistakenly administering expired vaccine. Thirty-six percent
                   (16 of 45) of selected providers had expired vaccines on the days of our
                   site visits. Expired vaccines were an average of 186 days past their
                   expiration dates on the days of our site visits, ranging from 6 to 673 days
                   past expiration. Thirteen providers stored expired vaccines with
                   nonexpired vaccines, increasing the risk of mistakenly administering the
                   expired vaccine.
                   We identified 579 expired vaccine doses, worth $14,645, which represents
                   3 percent of VFC vaccines we observed.62 If 3 percent of all VFC
                   vaccines ordered during 2010 were allowed to expire, approximately
                   2.4 million VFC vaccine doses would be subject to waste during the year.
                   See Photo 2 for an example of an expired vaccine identified during one of
                   our site visits.

                   60
                      The 12 providers recorded 74 instances of temperatures outside required ranges out of a possible 

                   11,520 instances for 2010.

                   61
                        21 CFR §§ 610.50, 610.53.

                   62
                     Seventy-three percent of identified expired vaccines were seasonal influenza vaccines. Seasonal influenza 

                   vaccines expire at the end of each flu season. Utilization of seasonal influenza vaccines varies from year to 

                   year, depending on the severity of the flu season.



Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                          17
                   Photo 2: Varicella Vaccine, With an Expiration Date of 04 Dec 2010,
                   Identified During Site Visit on 21 April 2011




                                                                                          
                   Providers must also monitor vaccine expiration dates to identify vaccines
                   that they do not expect to administer before expiration. Providers should
                   notify grantees of vaccines that will expire before the providers can
                   administer them. The grantees should then determine the appropriate
                   action to take to prevent vaccine waste. However, 7 of the 45 providers
                   indicated that they do not notify grantees upon identifying vaccines that
                   will expire before they can administer them.


                   None of the 45 providers we reviewed met the vaccine
                   management requirements in all 10 categories
                   None of the forty-five selected VFC providers performed all required
                   activities within each of the 10 vaccine management categories established
                   in the VFC Operations Guide. As a result, the 20,252 VFC vaccine doses
                   that we observed during site visits may not provide children with
                   maximum protection against preventable disease and may be vulnerable to
                   fraud, waste, and abuse. These doses were worth approximately
                   $800,000. In addition, 38 of 45 selected providers did not have all
                   required VFC documentation.

                   Forty of the forty-five selected providers did not meet all
                   requirements in at least half of the vaccine management
                   categories
                   Forty selected providers did not meet all requirements in at least 5 of the
                   10 requirement categories. The highest number of categories in which any
                   provider met all requirements was 8 (1 provider), and 7 of the 45 selected

Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)       18
                   providers met all requirements in 2 or fewer categories. Table 1 shows the
                   number and percentage of providers that did not meet the requirements in
                   each category. See Appendix F to see in which of the 10 categories each
                   provider did not meet all requirements.

                Table 1: Number and Percentage of Selected Providers That Did Not Meet All
                Requirements in Vaccine Management Categories
                                                                              Number of Providers         Percentage of Providers
                                                                              That Did Not Meet All          That Did Not Meet All
                                                                                  Requirements in                Requirements in
                  Category of Vaccine Management                                         Category                       Category
                  Requirements                                                              (n=45)                         (n=45)

                  Vaccine Storage Equipment                                                         43                           96%

                  Vaccine Storage Practices                                                         42                           93%

                  Temperature Monitoring                                                            40                           89%

                  Vaccine Storage and Handling Plans                                                38                           84%

                  Vaccine Personnel                                                                 37                           82%

                  Vaccine Waste                                                                     24                           53%

                  Vaccine Security and Equipment Maintenance                                        18                           40%

                  Vaccine Ordering and Inventory Management                                         17                           38%

                  Receiving Vaccine Shipments                                                       14                           31%

                  Vaccine Preparation                                                                1                           2%
                Source: OIG analysis of selected VFC provider documentation and site visit observations, 2011.

                   Of the 43 providers that did not meet all requirements in the Vaccine
                   Storage Equipment category, 3 were permanently storing VFC vaccines in
                   dorm-style storage units on the days of our site visits.63 VFC program
                   requirements do not allow the use of dorm-style units for permanent VFC
                   vaccine storage because such units are unable to reliably maintain
                   temperatures within required ranges. The average standard deviation of
                   the temperatures recorded in dorm-style refrigerator units was
                   approximately two times the average standard deviation for all refrigerator
                   types.64 See Photo 3 for an example of the interior of a dorm-style storage
                   unit that a VFC provider used for permanent VFC vaccine storage. Note
                   frost buildup on the bottom of the freezer compartment (circled).



                   63
                        The three providers were using a total of four dorm-style units to permanently store VFC vaccines.
                   64
                      The average temperature for dorm-style units during the 2-week period was 38°F with a standard deviation
                   of 4°F. In contrast, combined units had an average temperature of 39°F with a standard deviation of 2°F and
                   stand-alone units averaged 40°F with a standard deviation of 1°F. The overall standard deviation for all
                   refrigerators we observed was 2°F. Sensitech analysis of TempTale® data, 2011.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                       19
                   Photo 3: Dorm-Style Unit Used for Permanent VFC Vaccine Storage
                   (Note Frost Buildup in Circle)




                   Selected providers also did not meet thermometer requirements included
                   in the Vaccine Storage Equipment category. Specifically, thermometers
                   were not always calibrated or centrally placed within the VFC vaccine
                   storage units. For example, 38 providers had at least 1 thermometer that
                   was not calibrated as required in their freezers and/or refrigerators.65 Our
                   independently measured temperatures showed that VFC vaccines stored
                   by 28 of these 38 providers were exposed to temperatures outside required
                   ranges for at least 5 cumulative hours during the 2-week period. In
                   addition, 14 providers did not have at least 1 centrally placed thermometer
                   in their respective freezers, and 23 providers did not have a centrally
                   placed thermometer in their respective refrigerators. Of these 14 and
                   23 providers, our independently measured temperatures showed that 8 and
                   11, respectively, stored vaccines outside the required temperature ranges
                   for at least 5 hours. Without calibrated, centrally placed thermometers,
                   providers cannot ensure that their VFC freezers and refrigerators are
                   maintaining temperatures within the required ranges.




                   65
                      We either did not observe a current (nonexpired) calibration sticker on the providers’ thermometers or the
                   providers did not provide documentation demonstrating the thermometers were calibrated as required.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                             20
                   Thirty-eight of forty-five selected providers did not have all 

                   required documents 

                   Thirty-eight of forty-five selected VFC providers did not have at least one
                   of seven required VFC program documents. For example, providers must
                   maintain records to demonstrate that relevant staff were trained on how to
                   transport vaccines in an emergency. Without this training, providers may
                   not ensure that vaccines are maintained within the required temperature
                   ranges during an emergency, such as a power outage. Table 2 shows the
                   number and percentage of providers that did not have each of the seven
                   required documents. See Appendix G for the required documents not
                   provided by each of the 45 providers.

                 Table 2: Number and Percentage of Selected Providers Without Required
                 Documents

                                                                                  Number of Selected             Percentage of
                                                                                       VFC Providers              Selected VFC
                                                                                   Without Document           Providers Without
                   Required Document
                                                                                              (n=45)           Document (n=45)

                   VFC vaccine management training records                                            32                       71%
                   Documentation demonstrating the process to
                   ensure that VFC vaccines are administered only to
                   the VFC-eligible population                                                        15                       33%
                   Routine storage and handling plan
                                                                                                      14                       31%
                   Emergency storage and handling plan
                                                                                                      12                       27%
                   Current provider enrollment form*
                                                                                                        8                      18%
                   Current provider profile form*
                                                                                                        8                      18%
                   Calendar year 2010 temperature-monitoring logs
                                                                                                        3                       7%
                 * We also reviewed grantee documentation to determine whether providers had current enrollment and profile forms.
                 If a grantee had the document, we considered the provider to have the document for these analyses.
                 Source: OIG analysis of selected VFC provider documentation, 2011.


                   None of the five VFC grantees we reviewed met all
                   oversight requirements, and grantee site visits were
                   not effective in ensuring that providers met VFC
                   requirements over time
                   None of the five selected VFC grantees met all of the oversight 

                   requirements we reviewed, including accountability requirements, 

                   establishing comprehensive fraud and abuse policies, and providing 

                   required vaccine management materials to VFC providers. In addition, 




Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                          21
                   grantee site visits did not ensure that providers met vaccine management
                   requirements over time.
                   Two of the five selected VFC grantees did not meet two
                   accountability requirements
                   Two selected VFC grantees each did not meet two of the four vaccine
                   accountability requirements established in the VFC Operations Guide.
                   The three remaining grantees met all four vaccine accountability
                   requirements. One of the two grantees that did not meet all four
                   accountability requirements did not ensure that vaccines purchased with
                   VFC funds were administered only to VFC-eligible children or that
                   vaccines were ordered on the basis of the size of a provider’s VFC-eligible
                   population. The other grantee did not ensure that vaccine loss and waste
                   were minimized and measured or that the VFC program was protected
                   against fraud and abuse. Grantees that do not implement these four
                   requirements may have an increased risk of fraud, waste, and abuse in
                   their VFC programs.
                   None of the selected grantees’ fraud and abuse policies
                   addressed all required activities
                   None of the selected grantees’ fraud and abuse policies addressed all eight
                   activities needed to establish a comprehensive fraud and abuse mitigation
                   plan. According to the VFC Operations Guide, all grantees should have
                   well-defined processes for (1) the prevention and identification of fraud
                   and abuse and (2) the investigation and resolution of suspected cases of
                   fraud and abuse within their VFC programs. None of the selected grantees’
                   fraud and abuse policies addressed the following two activities:
                   (1) comparing enrolled providers to exclusion databases and
                   (2) developing a procedure for reporting provider terminations. In
                   addition, four of the five selected grantees’ fraud and abuse policies did
                   not include a fraud and abuse referral procedure. Also, four of five
                   grantees did not establish an allegation and referral database in their
                   policies. Table 3 shows the number and percentage of selected grantees
                   whose fraud and abuse policies did not include each of the eight required
                   activities. See Appendix H for the activities not included in each selected
                   grantee’s fraud and abuse policy.




Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)        22
    Table 3: Number and Percentage of Selected Grantees Whose Fraud and Abuse
    Policies Did Not Include Each Required Activity

                                                                                 Number of Grantees’        Percentage of
                                                                                   Fraud and Abuse     Grantees’ Fraud and
                                                                                    Policies Without        Abuse Policies
                                                                                   Required Activity     Without Required
      Required Activity                                                                        (n=5)         Activity (n=5)

      Comparing enrolled providers to exclusion databases                                         5                  100%
      Developing a procedure for reporting VFC provider terminations                              5                  100%
      Developing a fraud and abuse referral procedure                                             4                   80%
      Creating an allegation and referral database                                                4                   80%
      Identifying oversight personnel                                                             3                   60%
      Creating a protocol to annually review fraud and abuse policies                             3                   60%
      Developing a procedure for monitoring the VFC Program                                       2                   40%
      Developing training materials for VFC personnel                                             2                   40%
    Source: OIG analysis of selected grantees’ fraud and abuse policies, 2011.


                     None of the selected grantees provided required vaccine
                     management materials to all providers
                     None of the five selected grantees provided required vaccine management
                     materials to all nine selected VFC providers in their respective
                     jurisdictions. These materials are intended to assist VFC providers in
                     meeting the vaccine management requirements in the VFC Operations
                     Guide. Grantees must give providers a standardized vaccine management
                     plan template, which providers may use to meet the routine and
                     emergency storage and handling plan requirements. Fourteen selected
                     providers did not have overall vaccine management plans.
                     In addition, grantees did not provide standard operating procedures to all
                     providers, as required. At least seven of the nine selected providers in
                     each grantee jurisdiction did not provide at least one of the eight written
                     procedures that we requested during our site visits.
                     Finally, one grantee provided inaccurate guidance to VFC providers in its
                     jurisdiction. This grantee provided a temperature-monitoring log template
                     that instructed providers to maintain the logs for 1 year; however, the VFC
                     Operations Guide requires these logs to be maintained for a minimum of
                     3 years.




Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                23
                   Site visits by the selected grantees did not ensure that
                   providers met vaccine management requirements over time
                   Twenty-five of the forty-five selected VFC providers had a grantee site
                   visit during the 12 months prior to our site visits. However, the results of
                   our site visits for these 25 providers differed from those of the grantees.
                   We determined during our site visits that, on average, these 25 providers
                   did not meet 6 vaccine management requirements, whereas grantees
                   determined that providers did not meet an average of 2 requirements.
                   Overall, we found that 21 of the 25 providers met fewer vaccine
                   management requirements during our site visits than during grantee site
                   visits conducted within the previous 12 months. For example, 2 of these
                   25 providers were using dorm-style units to store their VFC vaccines
                   when we conducted our site visits. However, the grantees’ site visits—
                   including one grantee site visit conducted less than 2 months before our
                   site visit—did not identify these dorm-style units. In addition, five
                   providers did not have routine or emergency handling plans on the days of
                   our site visits. However, the grantee site visit reports noted that these
                   providers did have such plans.66 We could not determine whether the
                   grantee site visit results were not accurate or whether providers had been
                   in compliance with vaccine storage requirements at the time of the grantee
                   site visits and later stopped following program requirements. In either
                   case, site visits were not effective in ensuring that providers met vaccine
                   management requirements over time.




                   66
                      The time interval between grantees’ site visits for these five providers and our site visits ranged from 5 days
                   to 344 days.


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                             24
                   CONCLUSION AND RECOMMENDATIONS
                   Although the majority of storage temperatures we independently measured
                   during a 2-week period were within the required ranges, VFC vaccines
                   stored by 76 percent—34 of 45—of the selected providers were exposed
                   to inappropriate temperatures for at least 5 cumulative hours during that
                   period. If these 34 providers’ freezer and refrigerator temperatures
                   followed this same pattern for a year, these storage units could expose
                   vaccines to inappropriate temperatures for at least 130 hours over 1 year.
                   The 34 providers had 9,173 VFC vaccine doses on the days of our site
                   visits, worth approximately $368,820.
                   Additionally, 16 of 45 selected providers had expired VFC vaccines.
                   Thirteen of these providers did not remove their expired vaccines from
                   freezers or refrigerators containing nonexpired vaccines, increasing the
                   risk that the expired vaccines could be mistakenly administered. Expired
                   vaccines accounted for 3 percent of all VFC vaccines observed on the days
                   of our site visits. If 3 percent of all VFC vaccines ordered during 2010
                   were allowed to expire, approximately 2.4 million VFC vaccine doses
                   would be subject to waste during the year.
                   None of the 45 selected providers that we reviewed managed VFC
                   vaccines according to all vaccine management requirements, and
                   38 providers did not have all required documents. In addition, none of the
                   five VFC grantees that we reviewed met all oversight requirements or
                   provided required vaccine management materials to all selected VFC
                   providers in their jurisdictions. Finally, grantees’ site visits to 25 selected
                   providers did not ensure that these providers met vaccine management
                   requirements over time.
                   To address our findings, we recommend that CDC continue to work with
                   grantees and providers to:
                   Ensure That VFC Vaccines Are Stored According to
                   Requirements
                   The VFC Operations Guide requires grantees to ensure that VFC
                   providers have appropriate equipment to meet the vaccine management
                   requirements during enrollment site visits. CDC should continue to work
                   with grantees, providers, and professional organizations to ensure that
                   VFC vaccines are stored and temperatures are monitored according to
                   program and FDA requirements. Specifically, grantees should ensure that
                   providers have freezers and refrigerators that can maintain vaccines within


Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)          25
                   the required temperature ranges, as well as accurate
                   temperature‐monitoring devices that are regularly calibrated and centrally
                   placed within freezers and refrigerators. Providers without appropriate
                   equipment, such as those with dorm-style storage units or noncalibrated
                   thermometers, should not receive VFC vaccines.
                   Ensure That Expired VFC Vaccines Are Identified and
                   Separated From Nonexpired Vaccines
                   CDC and grantees should continue to work with providers and
                   professional organizations to ensure that VFC providers monitor vaccine
                   expiration dates to identify expired vaccines. In addition, providers should
                   immediately remove expired vaccines from freezers and refrigerators used
                   to store nonexpired vaccines to prevent inadvertent administration of
                   expired vaccines. If expired vaccines are mistakenly administered, they
                   may not provide children with maximum protection against preventable
                   disease. To reduce the likelihood of administering expired vaccines,
                   grantees should ensure that providers immediately report expired vaccines
                   and ensure that providers follow the grantees’ guidance on the disposal of
                   expired vaccines. Where possible, grantees should ensure that providers
                   return expired VFC vaccines for excise tax credit.
                   Ensure That Grantees Better Manage Providers’ Vaccine
                   Inventories
                   CDC and grantees should improve vaccine inventory management systems
                   and procedures to ensure that providers’ vaccine orders reflect their needs
                   and reduce vaccine waste. Before approving vaccine orders, grantees
                   should review providers’ profile forms; their inventories of current
                   vaccine, including expiration dates; and their doses-administered reports.
                   Further, grantees should ensure that providers notify them upon
                   identifying vaccines that will expire before the providers can use them.
                   To prevent program waste, grantees should consider alternate approaches,
                   such as increasing the use of these vaccines through vaccination drives.
                   Improved inventory systems and procedures for vaccine management can
                   prevent provider stockpiling and excessive inventories of all VFC
                   vaccines, including seasonal flu vaccines.
                   Ensure That Grantees Meet Oversight Requirements
                   CDC should review grantees’ activities and materials to ensure that they
                   meet oversight requirements. Before distributing vaccines to providers,
                   CDC should review grantees’ policies for ensuring accountability and
                   preventing fraud and abuse, as well as the training materials, the written

Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)          26
                   procedures, and document templates they have developed for providers.
                   CDC should ensure that grantees’ templates and training materials focus
                   on: (1) the vaccine management requirements that selected providers met
                   least frequently and that have the greatest impact on vaccine potency and
                   efficacy and (2) VFC program accountability requirements. Finally, CDC
                   should review the reports from grantees’ annual site visits to identify
                   grantees’ specific needs for provider training. CDC should periodically
                   train grantees’ site visit staffs to ensure that grantee site visits to providers
                   result in improved vaccine management and program accountability.




Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)            27
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CDC concurred with all four of our recommendations and noted that
                   vaccination is one of the most successful public health tools in preventing
                   and controlling disease. According to CDC, the United States has
                   achieved 90-percent or greater reduction in most vaccine-preventable
                   diseases through public and private vaccination efforts. Further, CDC
                   noted that VFC providers generally manage their public and private stock
                   vaccines in a similar manner and 90 percent of U.S. children are
                   vaccinated by a provider that participates in the VFC program. Therefore,
                   CDC believes that its efforts to strengthen VFC program storage and
                   handling practices will help improve vaccination services nationally and
                   benefit children vaccinated with both publicly and privately purchased
                   vaccines.
                   With regard to our first recommendation, CDC stated that it will work
                   with its partners, including State health officials, immunization program
                   managers, and professional organizations, to improve compliance with
                   vaccine storage equipment and temperature-monitoring requirements to
                   ensure proper vaccine storage.
                   With regard to the second and third recommendations, CDC said that it is
                   implementing significant changes to the VFC vaccine ordering and
                   provider inventory reporting systems. Improvements to these systems and
                   associated processes will result in better vaccine management, reducing
                   the risk of expired vaccines. CDC will also review its guidance and
                   training materials to ensure that program requirements related to managing
                   expired vaccines are communicated to and understood by VFC providers
                   and grantees.
                   With regard to our fourth recommendation, CDC stated that it will work
                   with VFC grantees and provider organizations to ensure that program
                   requirements are necessary for effective program oversight. In addition,
                   CDC will task working groups with reviewing VFC provider site visit
                   procedures and documentation to ensure that site visits are effective in
                   enforcing program requirements.
                   We support CDC’s efforts to address these issues and encourage it to
                   continue making progress. For the full text of CDC’s comments, see
                   Appendix I.




Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)         28
                       APPENDIX A 

Vaccines for Children Program Vaccines and Required Storage Temperatures

Vaccines That Must Be Stored Between 35°F and 46°F
Vaccine                                                             Brand                           Manufacturer
Diphtheria and Tetanus Toxoids and Acellular                      Daptacel
Pertussis Vaccine Adsorbed (DtaP)                                 Tripedia                      Sanofi Pasteur, Inc.
                                                                   Infanrix           GlaxoSmithKline Biologicals
Diphtheria and Tetanus Toxoids and Acellular
Pertussis Vaccine Adsorbed, Hepatitis B
(recombinant) and Inactivated Poliovirus Vaccine
Combined (DtaP-Hep B- IPV)                                         Pediarix           GlaxoSmithKline Biologicals
Diphtheria and Tetanus Toxoids and Acellular
Pertussis Adsorbed and Inactivated Poliovirus
Vaccine (DtaP-IPV)                                                 KINRIX             GlaxoSmithKline Biologicals
Diphtheria and Tetanus Toxoids and Acellular
Pertussis Adsorbed, Inactivated Poliovirus and
Haemophilus b Conjugate (Tetanus Toxoid
Conjugate) Vaccine (DtaP-IP-HI)                                   Pentacel                      Sanofi Pasteur, Inc.
Haemophilus b Conjugate (Meningococcal Protein
Conjugate) (Recombinant) (Hepatitis B-Hib)                        Comvax                          Merck & Co., Inc.
Haemophilus b Conjugate (Meningococcal Protein
Conjugate) (Hib)                                               PedvaxHIB                          Merck & Co., Inc.
Haemophilus b Conjugate Vaccine (Tetanus Toxoid
                                                                    ActHIB                      Sanofi Pasteur, Inc.
Conjugate) (Hib)
                                                                    Hiberix           GlaxoSmithKline Biologicals
Hepatitis A Vaccine, Inactivated                                   VAQTA                       Merck & Co., Inc.
                                                                    Havrix            GlaxoSmithKline Biologicals
Hepatitis A Inactivated and Hepatitis B
(Recombinant) Vaccine (Hepatitis A - Hepatitis B)                   Twinrix           GlaxoSmithKline Biologicals
Hepatitis B Vaccine (Recombinant)                                Engerix-B            GlaxoSmithKline Biologicals
                                                          Recombivax HB                           Merck & Co., Inc.
Human Papillomavirus Bivalent (Types 16, 18)
Vaccine, Recombinant (HPV)                                        Cervarix            GlaxoSmithKline Biologicals
Human Papillomavirus Quadrivalent (Types 6, 11,
16, 18) Vaccine, Recombinant (HPV)                                Gardasil                      Merck & Co., Inc.
Influenza Vaccine, Live, Intranasal                                FluMist                     MedImmune, LLC.
Influenza Virus Vaccine, Trivalent, Types A and B                              Novartis Vaccines and Diagnostics
                                                                    Fluvirin                                  Ltd.
                                                                   Fluzone                    Sanofi Pasteur, Inc.
Measles, Mumps, and Rubella Virus Vaccine, Live
(MMR)                                                             M-M-R II                        Merck & Co., Inc.
Meningococcal Polysaccharide (Serogroups A, C, Y,
and W-135) Diphtheria Toxoid Conjugate Vaccine                   Menactra                       Sanofi Pasteur, Inc.
Meningococcal (Groups A, C, Y, and W-135)
Oligosaccharide Diphtheria CRM197 Conjugate                                    Novartis Vaccines and Diagnostics,
Vaccine                                                            Menveo                                    Inc.
                                                                                             continued on next page




    Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                          29
Appendix A, continued



Vaccines for Children Program Vaccines and Required Storage Temperatures

Vaccines That Must Be Stored Between 35°F and 46°F


Vaccine                                                                               Brand                                   Manufacturer
Pneumococcal 13-valent Conjugate Vaccine
(Diphtheria CRM197 Protein) (PCV)                                               Prevnar 13                   Wyeth Pharmaceuticals Inc.
Pneumococcal Vaccine, Polyvalent                                           Pneumovax 23                                      Merck & Co, Inc
Poliovirus Vaccine Inactivated (Monkey Kidney Cell)
(e-IPV)                                                                                  IPOL                            Sanofi Pasteur, SA
Rotavirus Vaccine, Live, Oral                                                     ROTARIX                    GlaxoSmithKline Biologicals
Rotavirus Vaccine, Live, Oral, Pentavalent                                          RotaTeq                                 Merck & Co., Inc.
Tetanus and Diphtheria Toxoids                                                  Decavac                                  Sanofi Pasteur, SA
                                                                            MassBiologics                                   MassBiologics
Tetanus Toxoid, Reduced Diphtheria Toxoid and                                         Adacel                            Sanofi Pasteur, Inc.
Acellular Pertussis Vaccine, Adsorbed (Tdap)
                                                                                     Boostrix                GlaxoSmithKline Biologicals
Vaccines That Must Be Stored at or Below 5°F
Measles, Mumps, Rubella, and Varicella Virus
Vaccine Live (MMR-V)*                                                              ProQuad                                  Merck & Co., Inc.
Varicella Virus Vaccine Live*
                                                                                     Varivax                                Merck & Co., Inc.
* These vaccines are also available in refrigerator-stable versions that can be stored in either a freezer or a refrigerator. Refrigerator-stable
MMR-V and Varicella vaccines that are first stored in a freezer and subsequently stored in a refrigerator should not be refrozen and must be
used within 72 hours.
Sources: FDA, Vaccines licensed for immunization and distribution in the US with supporting documents. Accessed at
http://www.fda.gov/BiologicsBloodVaccines/Vaccines/ApprovedProducts/ucm093830.htm on November 29, 2010.
CDC, CDC vaccine price list. Accessed at http://www.cdc.gov/vaccines/programs/vfc/cdc-vac-price-list.htm on November 29, 2010.




     Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                                         30
                         APPENDIX B 


Vaccines for Children Program Vaccine Management Requirements for Providers
Requirement
Category          Required Activities
                    Providers must have appropriate equipment that can store vaccine and maintain proper conditions.
                    For detailed information on refrigerators and freezers, grantees and providers should refer to [the
                    Centers for Disease Control and Prevention’s (CDC)] Vaccine Storage and Handling Toolkit. Two
                    types of storage units are acceptable: 1) a refrigerator that has a separate freezer compartment with
                    separate exterior door, or 2) stand-alone, single-purpose refrigerators and freezers.
                    Refrigerators or freezers used for vaccine storage must be able to maintain required vaccine storage
                    temperatures year-round.
                    Refrigerators or freezers used for vaccine storage must be large enough to hold the year’s largest
                    inventory.
                    Refrigerators or freezers used for vaccine storage must have a working thermometer calibrated with
                    certificate in accordance with National Institute of Standards and Technology (NIST) or the American
                    Society for Testing and Materials (ASTM) standards placed in a central area inside each storage
                    compartment; follow manufacturer’s recommended schedule for recalibration.
                    Refrigerators or freezers used for vaccine storage must be dedicated to the storage of vaccines.
                    (Food and beverages must not be stored in a vaccine storage unit because this practice results in
                    frequent opening of the door and destabilization of the temperature.)
                    A dormitory-style refrigerator (a small combination refrigerator-freezer unit outfitted with a single
                    external door) is never acceptable for permanent storage of Vaccines for Children (VFC) vaccines
Vaccine Storage     .… At the grantee’s discretion, providers may use dormitory-style refrigerators to temporarily store a
Equipment           clinic’s single-day supply of refrigerated vaccines. The freezer portion of a dormitory-style refrigerator
                    must never be used to store any vaccine .…
                    Grantees have the discretion to ban the use of dormitory-style refrigerators among providers
                    altogether, even for temporary storage. However, for grantees choosing to allow the use of
                    dormitory-style refrigerators under limited conditions for short-term (temporary) storage of VFC
                    vaccines, the following conditions must apply:
                    1. The purpose of using these units is for temporary storage when it is not reasonable for the staff
                    administering the vaccine to go to the main storage unit to obtain vaccine for each and every patient.
                    2. The unit is never used for storing varicella-containing vaccines.
                    3. Only small amounts of inactivated vaccines are maintained in these units. The amount of
                    inactivated vaccines stored in the unit must never exceed the amount used in the clinic in one day.
                    4. The vaccine is returned to the main storage unit at the end of each clinic business day, and vaccine
                    is never stored in these units overnight or during periods of time when the practice is not open for
                    business.
                    5. Each unit has a dedicated calibrated thermometer in place.
                    6. Temperatures are visually monitored and documented twice a day on a temperature log
                    specifically for that unit. Appropriate action is immediately taken when the temperatures are outside
                    the appropriate range.
                    7. These units must be included and examined during the VFC compliance site visit and corrective
                    actions taken and documented by the grantee if any of the above conditions are not met.
                    The vaccine storage practices … are the responsibility of the provider/clinic vaccine coordinator or the
                    vaccine coordinator’s backup. If delegated to the backup, the designated vaccine coordinator must
                    monitor these activities regularly.
                    Rotate vaccine stock by placing vaccines with shorter expiration dates in front of those with longer
Vaccine Storage     expiration dates; check for short-dated vaccine.
Practices           Notify the immunization program of any vaccine doses that will expire before they can be
                    administered.
                    Only with the approval and direct guidance of the immunization program and only if the cold chain can
                    be ensured, redistribute short-dated vaccines to high-volume providers who are able to administer it
                    before it expires.
                                                                                                       Continued on next page




      Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                       31
                     Appendix B, continued

Vaccines for Children Program Vaccine Management Requirements for Providers
Requirement
Category              Required Activities
                      Store vaccines that require refrigeration in the middle of the refrigerator compartment away from the coils,
                      walls, floor, and cold air vent.
                      Store vaccines that require freezer storage in the middle of the freezer compartment, away from the walls,
Vaccine Storage       coils, and peripheral areas.
Practices (cont’d)
                      Space stored vaccine to allow for cold air circulation around the vaccine.
                      Never store vaccines in the door of the storage unit.

                      Never store food or drink in the storage unit.
                      Temperature monitoring should be the primary responsibility of the provider/clinic vaccine coordinator and
                      back-up. If other staff must monitor temperatures, those persons must be trained on how to respond to
                      and document actions taken when temperatures are outside the appropriate range.
                      Post a temperature log on the vaccine storage unit door or nearby in a readily accessible and visible
                      location.
                      Record refrigerator and freezer temperatures twice each day (beginning and end) ensuring that refrigerator
Temperature           temperatures are between 35°F and 46°F. The freezer temperature should be 5°F or lower. Twice-daily
Monitoring            temperature monitoring and recording is required even if a continuous graphing/recording thermometer or
                      a digital data logger is used.
                      Take immediate action to correct improper vaccine storage conditions, including inappropriate exposure to
                      light and inappropriate exposure to storage temperatures outside the recommended ranges. Document
                      actions taken on the temperature log.

                      Maintain an ongoing file of temperature logs, and store completed logs for at least 3 years.

                      Providers must have written routine and emergency storage and handling plans. They may develop their
                      own or customize the grantee-supplied storage and handling templates to reflect their office practice .…
                      Both plans should be reviewed and updated as necessary.
                      The routine vaccine storage and handling plan should include guidance on routine vaccine management
                      process/practices. Please refer to “Routine Vaccine Storage and Handling Plan Worksheet” in the Vaccine
                      Storage and Handling Toolkit.
                      The emergency vaccine storage and handling plan must include guidance on what to do in the event of
Vaccine Storage       refrigerator or freezer malfunctions, power failures, natural disasters, or other emergencies that might
and Handling          compromise appropriate vaccine storage conditions. Please refer to “Emergency Vaccine Retrieval and
Plans                 Storage Plan Worksheet” found in the Vaccine Storage and Handling Toolkit.
                      In any type of power outage:
                           -   Freezers and refrigerators should not be opened until power is restored, except to transport
                               vaccine to an alternative storage location.
                           -   Temperatures and duration of power outage must be monitored; vaccine should not be discarded
                               or administered until the situation has been discussed with public health authorities.

                      At a minimum, the emergency plan must be reviewed and updated annually (or as necessary) or when
                      there is a change in staff that have responsibilities specified in the emergency plan.

                                                                                                           Continued on next page




          Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                      32
                    Appendix B, continued

Vaccines for Children Program Vaccine Management Requirements for Providers
Requirement
Category             Required Activities
                     Designate one staff member to be the primary vaccine coordinator and at least one backup vaccine
                     coordinator who is able to perform the same responsibilities as the primary vaccine coordinator in the
                     event that the primary person is unavailable. These positions will be responsible for key requirements and
                     will provide oversight for all vaccine management within the office.
                     The designated vaccine coordinator and backup must be responsible for reviewing vaccine storage unit
Vaccine              temperatures to ensure they are within the recommended ranges and documenting the temperature on the
Personnel            temperature logs for each storage unit twice a day.
                     Train other staff who are responsible for administering vaccines or who may be required to transport
                     vaccine in an emergency situation, following the office’s vaccine storage and handling plan. A simple log
                     sheet with the staff member’s name and date of training must be kept and displayed as documentation.

                     Unless otherwise noted, the vaccine coordinator and/or backup should be the VFC contacts for the office.

                     Notify immediately the immunization program of vaccine cold chain failure/wastage incidents involving
                     publicly funded vaccines after discovery of the incident. Follow the guidance of the grantee on how to
                     document and report the incident .…
                     Implement written protocols for reporting and responding to losses resulting from vaccine expiration,
Vaccine Waste        wastage, and compromised cold chain.
                     Remove wasted/expired vaccine from storage containers with viable vaccine to prevent inadvertent
                     administration.

                     Return, as directed by the grantee, all spoiled or expired publicly purchased vaccines for excise tax credit.

Vaccine Security
                     Post “DO NOT DISCONNECT” notices at both the electrical outlet and the circuit breaker to prevent power
and Equipment
                     from being disconnected.
Maintenance

                     Order vaccine in accordance with actual vaccine need.
Vaccine Ordering
                     Develop and maintain complete, accurate, and separate stock records for both publicly and privately
and Inventory
                     purchased vaccines. The requirement to keep separate records does not necessitate having separate
Management
                     storage units for public and private vaccines. Providers must be able to distinguish between their public
                     and private vaccine stock.
                     VFC vaccine shipments received from the distributor contain heat and freeze exposure indicators. VFC
                     direct shipments of frozen vaccine from manufacturers are shipped in specialized boxes and do not contain
                     heat indicators.
Receiving
Vaccine              Immediately upon delivery of vaccine, check the vaccine cold chain monitors, if included, and store vaccine
Shipments            according to manufacturers’ product specifications.

                     Take proper action if either the freeze or heat cold chain monitor was activated. Instructions for reading
                     the monitors are printed on the monitor cards.

                                                                                                          Continued on next page




         Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                       33
                         Appendix B, continued


Vaccines for Children Program Vaccine Management Requirements for Providers

Requirement
Category                Required Activities
                        Document heat or freeze monitor readings if indicative of out-of-range temperature exposure, and contact
                        the State immunization program for further guidance. Document actions taken based on State
                        immunization program instructions.
Receiving
Vaccine                 If the provider believes that a vaccine shipment is compromised, temperature monitors are out of range, or
Shipments               a heat monitor is not activated (i.e., turned on), the provider should also contact McKesson Customer
(cont’d)                Service within 2 hours of vaccine shipment delivery time.
                        Develop policies and protocols for maintaining the vaccine cold chain during transport to offsite clinics or
                        emergency storage locations.
                        The National Center for Immunization and Respiratory Diseases (NCIRD), Centers for Disease Control and
Vaccine                 Prevention, strongly recommends that providers draw vaccine only at the time of administration to ensure
Preparation             that the cold chain is maintained and that vaccine is not inappropriately exposed to light. Do not pre-draw
                        doses before they are needed.
Source: CDC, VFC Operations Guide, Module 6: Vaccine Management, pp. 1-12, January 2011.




           Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                         34
                      APPENDIX C 




Five Vaccines for Children Program Grantees With Highest Vaccine Order Volumes


                                                                 Vaccine Doses           Percentage of Total Vaccine
Grantee                                                                Ordered                       Doses Ordered
California                                                              9,466,260                                         12%
Texas                                                                   8,749,080                                         11%
Florida                                                                 4,301,029                                          5%
New York City                                                           3,412,996                                          4%
Georgia                                                                 3,244,547                                          4%
Total Vaccine Doses Ordered for Top
Five Grantees                                                          29,173,912                                         36%
Total Vaccine Doses Ordered for All
Grantees                                                               81,632,576                                       100%
Source: Data provided by Centers for Disease Control and Prevention officials, December 20, 2010, and January 14, 2011. Data
reflect volume of vaccine orders for fiscal year 2010.




Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                          35
                                  APPENDIX D 



Vaccines for Children Program Providers in the Five Selected Grantee Jurisdictions by Sample Selection
Characteristics

                                          Number of Vaccines for                    Percentage of VFC
                                                   Children (VFC)                         Providers in             Number of VFC             Percentage of
                                          Providers in Population                       Population for               Providers in            VFC Providers
Characteristic                              for Selected Grantees                   Selected Grantees                    Sample                  in Sample

Provider Type
Private Practice                                                   8,235                                74%                         33                     73%
Public Health Department                                              928                                8%                           4                      9%
Federally Qualified Health
Center or Rural Health Clinic                                         823                                7%                           3                      7%
Other Public Health Provider                                          785                                7%                           3                      7%
Private Hospital                                                      313                                3%                           2                      4%
Grantees' Total Providers
by Selected Provider
Types1                                                            11,084                               99%2                         45                    100%


Vaccine Order Volume
Low Volume                                                         5,128                                42%                          19                    42%
High Volume                                                        7,171                                58%                         26                     58%
Grantees' Total Providers
by Volumes                                                        12,299                              100%                          45                    100%


Location Type
Rural                                                                 336                                9%                           5                    11%
Urban                                                              3,266                                91%                         40                     89%
Grantees' Total Providers
                  3
by Location Types                                                  3,602                              100%                          45                    100%
Source: Data provided by Centers for Disease Control and Prevention officials, December 20-29, 2010.
1
  Total providers by type differs from total providers by volume because we limited our sample to these five provider types. The remaining 1,215 providers were
types not included in our sample.
2
  Figures do not sum to 100 because of rounding.
3
  Only providers within 100 miles of the grantees’ VFC program office locations were included in our sample.




           Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                                  36
                        APPENDIX E

Selected Vaccines for Children Program Providers With Storage Units Outside the Required Temperature Range During a 2-Week
Period
Table E-1: Twenty-eight Freezers Above 5°F for at Least 5 Cumulative Hours
            Cumulative Hours      Longest Consecutive       Mean Temperature       Standard Deviation    Temperature Range
             Above Required              Hours Above            During Entire           During Entire   During Entire 2-Week
Provider              Range           Required Range        2-Week Period (°F)     2-Week Period (°F)             Period (°F)    Thermometer Type(s)         Unit Type
                                                                                                                                       Digital, Min-Max
28                       316.5                      43.8                    8.1                   4.3               4.6 – 28.3          Standard Fluid       Combined
27                       202.0                      23.3                    5.6                   1.6               1.9 – 16.2          Standard Fluid       Combined
10                       195.3                       3.0                    5.7                   2.7              -2.1 – 15.1          Standard Fluid       Combined
                                                                                                                                                  Digital
36                       162.0                       2.3                    5.6                   2.8              2.7 – 22.3          Digital, Min-Max      Combined
                                                                                                                                                    Dial
20                       138.5                      20.0                    3.4                   6.5            -11.4 – 44.3          Digital, Min-Max      Combined
13                       133.3                       1.3                    3.5                   3.8             -4.4 – 10.7                       Dial     Combined
                                                                                                                                                  Digital
31                       131.3                       0.5                    2.7                   5.2              -6.7 – 11.4       Standard Fluid (2)     Stand-alone
                                                                                                                                                  Digital
25                       130.3                       0.5                    4.5                   1.5               2.2 – 9.5           Standard Fluid      Stand-alone
8                        125.3                       3.8                    2.9                   6.0             -7.1 – 14.4                        n/a    Stand-alone
3                        123.0                      12.3                    3.0                   5.3            -12.8 – 23.6           Standard Fluid        Combined
41                       120.3                       2.3                   -0.2                   9.6            -20.7 – 19.8           Standard Fluid        Combined
30                        79.8                       1.5                    2.5                   4.5             -7.2 – 33.4           Standard Fluid        Combined
43                        65.0                      44.0                    3.3                   2.6             -1.3 – 15.9        Standard Fluid (2)       Combined
24                        43.8                       2.5                    3.7                   2.6             -1.9 – 25.8          Digital, Min-Max       Combined
17                        43.3                       5.0                    2.4                   3.7             -1.6 – 30.8           Standard Fluid        Combined
5                         37.5                       3.8                   -0.3                   4.6            -10.9 – 26.3        Standard Fluid (2)       Combined
                                                                                                                                       Digital, Min-Max
                                                                                                                                     Min-Max, Mercury
23                         30.0                     14.3                   -3.7                   9.5            -35.7 – 15.6           Standard Fluid       Combined
                                                                                                                                   Continued on next page




     Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                       37
Appendix E, continued

Selected Vaccines for Children Program Providers With Storage Units Outside the Required Temperature Range During a 2-Week
Period
Table E-1 (cont’d): Twenty-eight Freezers Above 5°F for at Least 5 Cumulative Hours
                                            Longest
              Cumulative Hours          Consecutive      Mean Temperature       Standard Deviation   Temperature Range
               Above Required          Hours Above           During Entire           During Entire        During Entire
Provider                Range        Required Range      2-Week Period (°F)     2-Week Period (°F)    2-Week Period (°F)        Thermometer Type(s)           Unit Type
11                        27.0                  10.3                    0.7                    2.5           -2.9 – 11.4                              Dial    Combined
                                                                                                                                       Digital, Min-Max
40                          24.3                  1.3                    -2.3                  5.5           -14.0 – 25.4                Standard Fluid       Combined
                                                                                                                                                      Dial
39                          19.5                  1.3                    0.6                   2.7            -2.9 – 16.9            Standard Fluid (2)       Combined
                                                                                                                                       Digital, Min-Max
44                          16.0                  1.3                    0.6                   4.3            -8.8 – 36.1                Standard Fluid       Combined
37                          15.3                  1.0                    1.5                   2.2            -3.9 – 16.8              Digital, Min-Max       Combined
                                                                                                                                       Digital, Min-Max
6                           12.5                  1.3                    -2.4                  3.3            -8.0 – 14.1                Standard Fluid       Combined
                                                                                                                                                 Dial (2)
                                                                                                                                   Digital, Min-Max (2)
7                           11.3                  0.8                     0.2                  2.6            -2.6 – 21.7                Standard Fluid        Combined
4                           11.0                    0                    -2.7                  2.7            -6.3 – 10.5            Standard Fluid (2)        Combined
12                          10.3                  1.0                    -0.3                  3.3            -9.2 – 11.6              Digital, Min-Max        Combined
21                           9.0                  8.8                    -1.8                  2.0            -4.2 – 11.6                Standard Fluid      Stand-alone
                                                                                                                                       Digital, Min-Max
                                                                                                                                     Digital, part of unit
29                           5.0                  0.5                  -10.1                   3.5           -16.2 – 11.5   Standard Fluid, Min-Max (2)       Combined
                                                                                                                                        Continued on next page




     Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                       38
Appendix E, continued

Selected Vaccines for Children Program Providers With Storage Units Outside the Required Temperature Range During a 2-Week
Period
Table E-2: Twenty-two Refrigerators Above 46.4°F, Below 35.6°F, or Both for at Least 5 Cumulative Hours
                                   Longest                            Longest              Mean           Standard
              Cumulative       Consecutive       Cumulative       Consecutive        Temperature         Deviation      Temperature
             Hours Above       Hours Above      Hours Below       Hours Below       During Entire     During Entire    Range During
                Required          Required         Required          Required      2-Week Period     2-Week Period     Entire 2-Week           Thermometer
Provider           Range             Range            Range             Range                (°F)              (°F)       Period (°F)                 Type(s)    Unit Type
                                                                                                                                            Digital, Min-Max
14                   264.8              34.0               0                 0                47.0              0.9        41.9 – 50.4        Standard Fluid     Combined
                                                                                                                                                       Digital
36                    10.3               2.3               0                 0                44.1              0.9        41.9 – 52.2      Digital, Min-Max     Combined
12                     5.3               1.5               0                 0                43.6              1.6        40.3 – 60.3      Digital, Min-Max     Combined
3                      5.0               1.0            15.3               0.5                40.7              2.9        33.1 – 59.0        Standard Fluid     Combined
11                       0                 0           294.8              10.3                34.3              1.4        32.2 – 40.6                   Dial    Combined
                                                                                                                                         Continuous Digital,
18                     1.5               1.0           284.3              12.3                30.7              5.1        25.0 – 58.1               Min-Max     Pharmacy
                                                                                                                                                         Dial
20                       0                 0           171.0              20.0                35.1              2.8        25.1 – 41.2      Digital, Min-Max     Combined
4                        0                 0           134.3               1.5                36.1              1.4        32.9 – 43.6      Digital, Min-Max     Combined
                                                                                                                                                         Dial
                                                                                                                                                       Digital
21                     2.8               1.5           123.3                6.5               35.4              5.5        20.7 – 54.4        Standard Fluid     Dorm-style
19                       0                 0           108.3                1.3               36.7              2.1        31.5 – 44.1   Digital, Min-Max (3)    Combined
41                       0                 0            91.8                2.0               38.1              3.7        28.4 – 45.2        Standard Fluid     Combined
10                       0                 0            67.3                0.5               38.1              2.5        32.7 – 44.0        Standard Fluid     Combined
32                     1.8               1.8            52.0                0.8               39.6              3.2        33.4 – 48.3      Digital, Min-Max     Combined
5                        0                 0            50.0                3.8               38.7              2.7        29.9 – 45.2    Standard Fluid (2)     Combined
17                       0                 0            49.3                0.3               36.4              0.8        34.5 – 40.8        Standard Fluid     Combined
                                                                                                                                                       Digital
42                     1.3               1.3            35.5                7.0               36.2              1.1        33.7 – 49.0        Standard Fluid     Combined
30                       0                 0            34.3                1.8               38.9              2.4        31.0 – 44.3        Standard Fluid     Combined
                                                                                                                                                         Dial
                                                                                                                                            Digital, Min-Max
28                       0                 0            31.0                1.0               37.8              1.9        32.4 – 44.9        Standard Fluid     Combined
                                                                                                                                                Continued on next page




     Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                           39
Appendix E, continued

Selected Vaccines for Children Program Providers With Storage Units Outside the Required Temperature Range During a 2-Week
Period
Table E-2 (cont’d): Twenty-two Refrigerators Above 46.4°F, Below 35.6°F, or Both for at Least 5 Cumulative Hours
                                      Longest                                   Longest           Mean          Standard
               Cumulative         Consecutive          Cumulative           Consecutive     Temperature        Deviation      Temperature
              Hours Above         Hours Above         Hours Below           Hours Below    During Entire    During Entire    Range During
                 Required            Required            Required              Required   2-Week Period    2-Week Period     Entire 2-Week           Thermometer
Provider            Range               Range               Range                 Range             (°F)             (°F)       Period (°F)                 Type(s)   Unit Type
                                                                                                                                                  Digital, Min-Max
6                         0.3                 0.3               25.8                1.3             39.6              2.5        32.1 – 46.7        Standard Fluid    Combined
7                         0.8                 0.5               18.5                1.0             39.8              2.0        28.7 – 48.9   Digital, Min-Max (2)   Combined
2                         3.8                 3.0               13.3                0.3             38.7              2.2        34.1 – 59.5      Digital, Min-Max    Combined
27                          0                   0               12.5                0.3             38.0              1.4        34.2 – 43.7        Standard Fluid    Combined
Sources: Sensitech analysis of TempTale® data and OIG observations, 2011.




     Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                 40
                              APPENDIX F 



Vaccines for Children Program Vaccine Management Requirements That Providers Did Not Meet

                      Total                                                                         Category of Requirements
                Categories                                                         Vaccine                                     Vaccine         Vaccine
                       With       Vaccine          Vaccine                     Storage and                                 Security and   Ordering and      Receiving
              Requirements        Storage          Storage    Temperature         Handling            Vaccine   Vaccine     Equipment        Inventory       Vaccine             Vaccine
Provider            Not Met     Equipment         Practices    Monitoring            Plans          Personnel    Waste     Maintenance    Management       Shipments          Preparation
1                         9        X                X             X                X                  X           X            X               X             X
2                         8        X                X             X                X                  X           X            X                                                X
3                         8        X                X             X                X                  X           X            X              X
4                         8        X                X             X                X                  X           X            X                              X
5                         8        X                X             X                X                  X           X            X                              X
6                         8        X                X             X                X                  X           X                           X               X
7                         8        X                X             X                X                  X           X                           X               X
8                         7        X                X             X                X                  X           X                           X
9                         7        X                X             X                X                  X           X            X
10                        7        X                X             X                X                  X           X            X
11                        7        X                X             X                X                  X           X            X
12                        7        X                X             X                X                  X           X                                           X
13                        7        X                X             X                X                  X           X                           X
14                        7        X                X             X                X                  X           X                                           X
15                        7        X                X             X                X                  X           X                           X
16                        7        X                X             X                X                  X           X                                           X
17                        7        X                X             X                X                              X            X                              X
18                        7        X                              X                X                  X           X            X              X
19                        7        X                              X                X                  X           X                           X               X
20                        6        X                X             X                X                  X           X
21                        6        X                X             X                X                  X           X
22                        6        X                X             X                X                  X                        X
23                        6        X                X             X                X                  X                                                       X
                                                                                                                                                     Continued on next page




           Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                         41
           Appendix F, continued

Vaccines for Children Program Vaccine Management Requirements That Providers Did Not Meet

                        Total                                                                                 Category of Requirements
                  Categories                                                                   Vaccine                                    Vaccine         Vaccine
                         With         Vaccine            Vaccine                           Storage and                                Security and   Ordering and    Receiving
                Requirements          Storage            Storage       Temperature            Handling          Vaccine    Vaccine     Equipment        Inventory     Vaccine       Vaccine
Provider              Not Met       Equipment           Practices       Monitoring               Plans        Personnel     Waste     Maintenance    Management     Shipments    Preparation
24                          6           X                 X                X                   X                X                                         X
25                          6           X                 X                X                   X                                          X               X
26                          6           X                 X                X                   X                                                          X           X
27                          6           X                 X                X                                    X            X                            X
28                          6           X                 X                X                                    X                         X                           X
29                          6           X                 X                X                                    X                                        X            X
30                          6           X                 X                                      X              X                         X              X
31                          5           X                 X                  X                   X              X
32                          5           X                 X                  X                   X              X
33                          5           X                 X                  X                   X              X
34                          5           X                 X                  X                   X              X
35                          5           X                 X                  X                   X                                        X
36                          5           X                 X                  X                                  X                                        X
37                          5           X                 X                  X                                  X            X
38                          5           X                 X                  X                                  X                         X
39                          5           X                                    X                   X              X                         X
40                          5                             X                  X                   X              X            X
41                          4             X               X                                      X                                        X
42                          4             X               X                                      X                                                       X
43                          4                             X                  X                   X              X
44                          3            X                X                                      X
45                          2            X                X
 Total              N/A                  43               42                 40                 38              37           24           18             17          14             1
Source: OIG observations and analysis of selected VFC provider interview responses and documentation, 2011.




           Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                    42
                   APPENDIX G 




Required Vaccines for Children Program Documents Not Provided by Providers

                                                      Documentation Demonstrating the
                 Total Number of                    Process To Ensure That Vaccines for        Routine                      Current                          2010
                        Required                            Children (VFC) Vaccines Are    Storage and     Emergency       Provider         Current   Temperature-
                 Documents Not         Training    Administered Only to the VFC-Eligible      Handling    Storage and    Enrollment        Provider     Monitoring
Provider                Provided       Records                               Population           Plan   Handling Plan         Form    Profile Form          Logs
18                             6         X                          X                           X             X             X               X
5                              5         X                          X                           X                                           X
4                              5         X                                                      X             X             X               X
20                             4         X                           X                          X             X
13                             4         X                                                      X                                          X
15                             3         X                           X                                                                                     X
6                              3         X                                                                                  X              X
7                              3         X                                                     X              XX
11                             3         X                                                     X              X
16                             3         X                                                     X              X
19                             3         X                                                     X              XX
32                             3         X                                                                    X                                            X
14                             3         X                                                                                  X              X
39                             3         X                                                                                  X              X
1                              3                                     X                         X              X
12                             2         X                           X
21                             2         X                           X
22                             2         X                           X
23                             2         X                           X
25                             2         X                           X
31                             2         X                           X
36                             2         X                           X

                                                                                                                                Continued on next page




Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                      43
           Appendix G, continued



Required Vaccines for Children Program Documents Not Provided by Providers

                   Total Number of                           Documentation Demonstrating the          Routine                      Current                         2010
                          Required                                 Process To Ensure That VFC     Storage and     Emergency       Provider        Current   Temperature-
                   Documents Not            Training         Vaccines Are Administered Only to       Handling    Storage and    Enrollment       Provider     Monitoring
Provider                  Provided          Records                 the VFC-Eligible Population          Plan   Handling Plan         Form   Profile Form          Logs
40                               2            X                            X
43                               2            X                            X
10                               2            X                                                       X
27                               2            X                                                                                                                  X
8                                2                                                                    X              X
9                                2                                                                    X              X
17                               2                                                                    X              X
42                               2                                                                                                 X             X
2                                1             X
24                                  1          X
28                                  1          X
29                                  1          X
33                                  1          X
37                                  1          X
38                                  1          X
41                                  1                                      X
3                                   0
26                                  0
30                                  0
34                                  0
35                                  0
44                                  0
45                                  0
Total                                         32                           15                         14             12            8             8               3
Source: OIG analysis of selected VFC provider documentation, 2011.




Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                             44
                                 APPENDIX H 


Activities Missing From Selected Grantees’ Vaccines for Children Program Fraud and Abuse Policies
                                                             Develop a Procedure
                                   Compare Enrolled                 for Reporting              Develop a                Create an                        Create a Protocol             Develop a          Develop
                       Total           Providers to         Vaccines for Children              Fraud and           Allegation and        Identify             To Annually          Procedure for          Training
              Activities Not             Exclusion                (VFC) Provider           Abuse Referral                Referral      Oversight         Review the Fraud          Monitoring the     Materials for
Grantee            Included              Databases                  Terminations              Procedure                 Database       Personnel         and Abuse Policy           VFC Program     VFC Personnel
1                            6              X                           X                         X                      X                   X                    X
2                            8              X                           X                         X                      X                   X                    X                     X                 X
3                            6              X                           X                                                X                   X                    X                                       X
4                            3              X                           X                         X
5                            5              X                           X                         X                      X                                                              X
Total                                       5                           5                         4                      4                   3                    3                     2                 2
Source: Office of Inspector General analysis of selected grantees’ fraud and abuse policies, 2011. Requirements established in the VFC Operations Guide, Module 10: Fraud and Abuse.




        Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)                                              45
                   APPENDIX I 


                   Agency Comments 





Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)   46
         Appendix I, continued




               CDC Response: CDC concurs with this recommendation and is committed to protecting public
               investments in life saving vaccines and ensuring propel' vaccine storage and handling. We
               recognize that proper vaccine management is a collaborative effort between the agency,
               immunization grantees, and the nearly 45,000 participating VFC provider sites.

               CDC is comllutted to the continuous quality improvement of guidance documents, program
               requirements, and support materials for vaccine management, as well as storage and handling at
               the provider and grantee level. In addition, CDC will work with its partners, including state
               health officials, immunization program managers, and professional organizations to research and
               identify strategies 10 improve compliance with equipment requirementS and temperature
               monitoring for proper vaccine storage.

               OlG Recommendation: Ensure expired vaccines are identified and separated from viable
               vaccines.

               CDC Response: CDC concurs with this recommendation. CDC is in the process of
               implementing significant changes in how VFC vacdnes are ordered and provider inventories are
               reported. Through changes in the vaccine ordering systems and processes, CDC is expecting,to
               improve vaccine accounting in the provider office and forecasting of their vaccine supply needs.
               The end result will be better vaccine management and reduced risk of ~xpired and soon-Io-be
               expired vaccine. With less expired vaccine in the provider office, a lower risk of expired vaccine
               being comillgled with viable stock will exist. CDC will also review its guidance and training
               materials to ensure pl'Ogram requirements related to expired vaccine management are clear, well­
               communicated, and understood by grantees and providers.

               OIG Recommendation: Ensure grantees establish provider inventory systems and procedures to
               better manage soon-to-expire vaccines.

               CDC Re.~ponse: CDC concurs with this recommendation. As stated above, CDC is in the
               process of implementing sigl'Jficant changes in how VFC vaccines are ordered and provider
               inventories are reported. Through changes in the vaccine ordering systems and processes, CDC
               is expecting vaccine supply forecasting by providers to improve. The end result will be better
               vaccine management and reduced risk of expired and soon-to-be expired vaccines. As CDC
               continues to U'ansform the vaccine ordering and information systems, it will incorporate OIG's
               recommendations.

                OlG Recommendation: Ensure grantees meet oversight requirements.

                CDC Response: CDC concurs with this recommendation and is committed to maintaining the
                integrity of the VFC program through effective management and oversight. CDC also
                understands the need to minimize the burden of administrative and record keeping requirements
                on VFC providers. CDC will work with its grantees and provider organizations to ensure
                program requirements are necessary for effective oversight of the program. In addition, working
                groups will review VFC provider site visit procedLU'es and documentation to ensure they can be
                effective in enforcing program requirements.
                                                                         /S/
                                                            ' rhomos R. Frieden, M.D., M.P.H.

                                                                2




Vaccines for Children Program: Vu lnerabilities in Vaccine Management (OEI-04-1 0-00430)                            47
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Dwayne Grant, Regional
                   Inspector General for Evaluation and Inspections in the Atlanta regional
                   office, and Jaime Durley, Deputy Regional Inspector General.
                   Holly Williams served as the lead analyst for this study. Other principal
                   Office of Evaluation and Inspections staff from the Atlanta regional office
                   who contributed to the report include Sarah McLaulin and Latrice Rollins;
                   central office staff who contributed include Kevin Farber, and
                   Talisha Searcy.
                   We would also like to acknowledge the contributions of other Office of
                   Evaluation and Inspections regional office staff, including Sarah Ambrose,
                   Teresa Dailey, Conswelia McCourt, and Brian Pattison.




Vaccines for Children Program: Vulnerabilities in Vaccine Management (OEI-04-10-00430)        48
                      Office of Inspector General 

                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
